Report No. D-2011-030                      January 3, 2011




    Ballistic Testing and Product Quality Surveillance for
      the Interceptor Body Armor - Vest Components
                      Need Improvement
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AQL                           Acceptance Quality Limit
COPD                          Contract Purchase Description
DAP                           Deltoid and Axillary Protector
DCMA                          Defense Contract Management Agency
FAR                           Federal Acquisition Regulation
FAT                           First Article Test
GAO                           Government Accountability Office
IBA                           Interceptor Body Armor
IG                            Inspector General
IOTV                          Improved Outer Tactical Vest
LAT                           Lot Acceptance Test
OTV                           Outer Tactical Vest
PDM                           Preliminary Design Model
PEO                           Program Executive Office
PM SEQ                        Program Manager for Soldier Equipment
QALI                          Quality Assurance Letter of Instruction
QAR                           Quality Assurance Representative
RDECOMAC                      Research, Development and Engineering Command
                               Acquisition Center
                                 INSPECTOR GENERAL 

                                 DEPARTMENT OF DEFENSE 

                                   400 ARMY NAVY DR IVE 

                              ARLINGTON, VIR GINIA 22202-4704 

                                                                           January 3, 2011


MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY
              COMMANDING GENERAL, PROGRAM EXECUTIVE
                 OFFICE SOLDIER
              DIRECTOR, DEFENSE CONTRACT MANAGEMENT
                 AGENCY
              DIRECTOR, DEFENSE CONTRACT MANAGEMENT
                 AGENCY ORLANDO


SUBJECT: Ballistic Testing and Product Quality Surveillance for the Interceptor Body
         Armor - Vest Components Need Improvement (Report No. 0-2011-030)

We are providing this report for your information and use. We considered management
conunents on a draft of this report when preparing the final report. The ballistic testing
and product quality surveillance for the Interceptor Body Armor - Vest Components
could provide only limited assurance that the vest components met contract requirements.
This is the third in a series ofInterceptor Body Armor reports in response to a
congressional request.

The Defense Contract Management Agency and Army Program Executive Office Soldier
comments conformed to the requirements of 000 Directive 7650.3; therefore, additional
conunents are not required.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9071 (DSN 664-9071).


                                               ~ c, . @vJ-
                                                 Bruce A. Burton
                                                 Deputy Assistant Inspector General
                                                 Acquisition and Contract Management
        Report No. D-2011-030 (Project No. D2008-D000CD-0256.005)                        January 3, 2011




                       Results in Brief: Ballistic Testing and
                       Product Quality Surveillance for the
                       Interceptor Body Armor – Vest
                       Components Need Improvement
                                                                accordance with contract requirements, the Army
What We Did                                                     cannot assure that the vest components meet the
We are performing a series of Interceptor Body                  contract requirements, which were developed to provide
Armor audits in response to a congressional request.            an appropriate level of protection for the warfighter.
This audit covered six contracts valued at
$434 million awarded to Point Blank Body Armor,                 Defense Contract Management Agency (DCMA)
Inc. for vest components. We determined that the                Orlando personnel did not use a proper random
ballistic testing of the Interceptor Body Armor –               sampling methodology that provided a
Vest Components for five contracts and product                  representative sample for five contracts with 560
quality surveillance for six contracts could only               LATs. This occurred because DCMA personnel
provide limited assurance that the vest components              incorrectly believed their sampling process provided
met contract requirements.                                      a representative sample. As a result, the LAT
                                                                results cannot be relied upon to project whether an
What We Found                                                   entire lot met the contract requirements. Also,
The Army Program Manager for Soldier Equipment                  693 lots or 75 percent of the total lots for six
(PM SEQ) did not consistently enforce ballistic testing         contracts lacked quality inspection records. This
requirements for the five contracts. On two of the five         occurred because the records were either destroyed
contracts, PM SEQ lowered the testing requirements              by Hurricane Wilma or maintained for only 2 years.
after three individual tests did not achieve the minimum        Without adequate records, DCMA cannot ensure the
velocity requirements. PM SEQ lowered the                       integrity of the product quality surveillance process.
requirement to reduce the risk from fielding delays. On
all five contracts, PM SEQ waived an accelerated aging          What We Recommend
test because they no longer believed the test was               That the Army Program Executive Office Soldier
appropriate. On 1 of the 5 contracts, PM SEQ accepted           require any waivers of FAT and LAT be approved
70 lots before a First Article Test (FAT) was performed         in writing and perform a risk assessment on 560
because the materials used were identical to previously         lots. Further, DCMA Orlando should provide
approved materials. Of 900 lots on the five contracts,          training on the use of a random sample generator
560 met the lot acceptance test (LAT) requirements.             tool and improve quality inspection records.
For the remaining 340 lots, PM SEQ did not require
LATs because either the materials were previously               Management Comments and Our
approved, or PM SEQ did not require the insertion of
new ballistic panels.                                           Response
                                                                The Army Program Executive Office Soldier and
We did not conduct any testing of the vest components           DCMA generally agreed with the recommendations,
acquired through the five contracts; therefore, we do not       and their comments were responsive to the intent of the
know whether the above conditions affected the                  recommendations. No further comments are required.
performance of the vest components. However, if the             Please see the recommendations table on the back of
ballistic testing requirements are not implemented in           this page for details.

                                                            i
Report No. D-2011-030 (Project No. D2008-D000CD-0256.005)          January 3, 2011



Recommendations Table

Management                         Recommendations          No Additional Comments
                                   Requiring Comment        Required
Commanding General, Army                                    A, B.1
Program Executive Office Soldier
Director, Defense Contract                                  B.2.a, B.2.b, and B.2.c
Management Agency Orlando




                                           ii
Table of Contents

Introduction	                                                                  1


      Audit Objectives                                                         1

      Background on Interceptor Body Armor                                     1

      Internal Control Weaknesses for Product Quality Surveillance Process     4


Finding A. Limited Assurance Obtained From Ballistic Testing for the Vest

Components                                                                     5


      Testing Process for the Vest Components                                  6

      Previously Conducted Tests Used to Waive First Article Tests             7

      Lot Acceptance Tests Not Always Required                                11 

      Management Corrective Actions                                           14 

      Summary                                                                 15 

      Recommendations, Management Comments, and Our Response                  16 

      Management Comments on the Internal Controls and Our Response           16 


Finding B. Improvements Needed for Product Quality Surveillance for the Vest

Components                                                                    18 


      Quality Assurance Regulations                                           18 

      DCMA Quality Assurance Process                                          19 

      Lot Acceptance Test Sample Selection Process                            19 

      Inappropriate Sampling Methodology Used for Lot Acceptance Test         20 

      QAR Did Not Always Sign Form 1222, “Request For and Results of Tests”   22 

      Incomplete Product Quality Surveillance Records                         22 

      Summary                                                                 25 

      Recommendations, Management Comments, and Our Response                  26 


Appendices

      A. 	Scope and Methodology                                               29 

             Prior Coverage                                                   30 

      B. Request From Congresswoman Slaughter	                                32 

      C. Summary of the Product Quality Surveillance Process and Weaknesses   34 

      D. Overview of Six Contracts	                                           35 


Management Comments

      Army Program Executive Office Soldier                                   37 

      Defense Contract Management Agency                                      41 

Introduction
Audit Objectives
The audit objective was to evaluate the product quality assurance for six Interceptor Body
Armor (IBA) contracts awarded to Point Blank Body Armor, Inc. (Point Blank) for Outer
Tactical Vests (OTVs) and components. Specifically, we determined whether the
ballistic test results for first article tests (FATs) and lot acceptance tests (LATs) met the
contract requirements. Further, we determined whether quality assurance personnel
performed the product quality surveillance in accordance with the contract requirements.
See Appendix A for a discussion of scope and methodology and prior coverage. Finding
A discusses the ballistic test results for five of the six contracts awarded to Point Blank.
Finding A does not discuss the sixth contract, W91CRB-05-F-0072, because it did not
require ballistic testing. That contract was to convert the current camouflage pattern to
the Universal Camouflage pattern of all OTV and components. Finding B discusses the
product quality surveillance for all six contracts.

Background on Interceptor Body Armor
This is the third in a series of reports that will be issued in response to a request from
Congresswoman Slaughter (see Appendix B). DoD Inspector General (IG) Report
No. D-2008-067, “DoD Procurement Policy for Body Armor,” March 31, 2008,
identified 13 contracts that did not have documentation of first article testing. In a
June 23, 2008, letter, Congresswoman Slaughter requested that the DoD IG conduct a
further review of the 13 contracts. Of the 13 contracts, the Army awarded 6 contracts to
Point Blank for the OTV and components from June 2004 through May 2006 with a total
value of $434 million. See Appendix D for details on the six contracts.

Interceptor Body Armor – Vest Components
IBA is a modular body armor system that consists of an OTV, ceramic plates, and
components that increase the area of coverage. IBA increases survivability by stopping
or slowing bullets and fragments and reducing the number and severity of wounds. See
Figure 1 for a diagram of the IBA system.




                                             1

                            Figure 1. Interceptor Body Armor




       Source: Army Program Executive Office Soldier

The OTV is an integral component of the IBA system. A complete OTV subsystem
consists of a base vest and a yoke and collar assembly, a throat protector assembly, and a
groin protector assembly (hereafter referred to as vest components). The OTV is
compatible with the deltoid and axillary protectors (DAPs), which provide additional
fragmentation and small arms protection to the upper arm and underarm areas.

Each vest component comprises an outershell, ballistic panels, and an outershell inner
lining. The ballistic panels contain a number of plies that are constructed from Kevlar
and Twaron material, also referred to as ballistic material. For the contracts we reviewed,
there were two different ballistic packages—Pathfinder and Pathfinder-S. Each ballistic
package contained a different combination of the number of the ballistic plies.

In May 2007, the Army updated the OTV subsystem to the Improved Outer Tactical Vest
(IOTV). The IOTV subsystem consists of a base vest assembly, front yoke and collar
assembly, back yoke and collar assembly, lower back protector assembly, groin protector
assembly, and deltoid protector components.

Organizations Responsible for Quality Assurance Oversight
The Army Research, Development and Engineering Command Acquisition Center
(RDECOMAC); Army Program Executive Office (PEO) Soldier; and the Defense
Contract Management Agency (DCMA) were responsible for overseeing the six
contracts.

RDECOMAC provides acquisition and contracting support to the soldier “with the latest
technology and goods and services.” RDECOMAC was designated as the Command
Acquisition Center on July 27, 2004. Prior to that, it was called the Robert Morris
Acquisition Center. Two of the six contracts were awarded by the Robert Morris
Acquisition Center before it was renamed RDECOMAC. We refer to the Acquisition
Center throughout this report as RDECOMAC.


                                               2

PEO Soldier, a component of TACOM Life Cycle Management Command, develops and
fields equipment so that U.S. soldiers are protected in missions that span the full
spectrum of military operations. PEO Soldier ensures that the soldier and everything he
or she wears or carries works together as an integrated system. The desired result is an
overall systematic design that enhances the soldier’s ability to accomplish individual and
collective tasks, improves quality of life, builds confidence, and saves lives.

A division of PEO Soldier, the Program Manager Soldier Equipment (PM SEQ),
develops, fields, and sustains equipment to advance warfighting capabilities. PM SEQ
procures, adapts, or develops sensors, lasers, clothing and other individual equipment,
and survivability items. PM SEQ was responsible for the technical aspects of the six vest
component contracts, such as developing and coordinating the product descriptions and
specifications as well as scoring the FAT and LAT results.

PM SEQ was restructured on July 8, 2009, and renamed Project Manager Soldier
Protection and Individual Equipment. PM SEQ was the name of the division at the time
the contracts were awarded; therefore, we refer to Project Manager Soldier Protection and
Individual Equipment as PM SEQ.

DCMA, a DoD combat support agency, provides contract management services, covering
pre-award and post-award activities. For post-award, DCMA is responsible for ensuring
contractors’ compliance with contractual terms and conditions, ranging from cost and
schedule analysis to on-site surveillance. DCMA Orlando was responsible for inspection
and acceptance of the products obtained under the six contracts.

Quality Assurance Requirements for the Vest Components
Federal Acquisition Regulation (FAR) part 46, “Quality Assurance,” prescribes policies
and procedures to ensure that supplies and services acquired under Government contract
conform to the contract’s quality and quantity requirements. The FAR further states that
quality requirements include inspection, acceptance, warranty, and other measures. The
IBA contract purchase description (COPD) provides the requirements for the material,
design, ballistic performance, and inspections for the IBA products. The COPD divides
the Quality Assurance requirements into four categories; see Table 1 for details.




                                            3

                          Table 1. Quality Assurance Categories
Testing                Inspection           Demonstration               Analysis
When testing—          Prior to lot         During the                  To monitor the
FAT or LAT—of          acceptance, DCMA component                       component’s
the components is      selects              inspection, DCMA            performance, the
required, the Army     representative       verifies whether or         Army analyzes and
examines ballistic     components and       not the component           compares test
test results in        inspects their       is serviceable. For         results from month
accordance with the    characteristics to   example, a snap             to month. If the
COPD. Approval         ensure compliance    fastener is one of          Army identifies any
of a FAT could         with the COPD.       the major                   signs that the
result in full rate    Further, DCMA        component’s                 components’
production and         performs on-site     characteristics —           performance
approval of a LAT      inspection of the    DCMA works the              degraded, the Army
could result in lot    manufacturing        snap fasteners to           should work with
acceptance.            process.             ensure they                 the vendor to
                                            function properly.          address the
                                                                        concern.

Internal Control Weaknesses for Product Quality
Surveillance Process
We identified internal control weaknesses in the product quality surveillance process over
the IBA Program as defined in DoD Instruction 5010.40, “Managers’ Internal Control
(MIC) Program Procedures,” January 4, 2006. Specifically, PM SEQ lowered the
minimum velocity requirements and waived the LAT requirements, which were not
documented at the time the decision was made; and support contractors approved the
LAT results, an inherently governmental function. Further, DCMA Orlando did not use a
statistical sampling methodology to ensure a correct representative sample was selected
for LAT and product quality surveillance records were not retained for 6 years and 3
months as required by the FAR and its record retention instruction. Appendix C shows
details of the product quality surveillance process and the areas needing improvements.
We will provide a copy of the report to the senior official responsible for internal controls
at the Army and DCMA.




                                             4

Finding A. Limited Assurance Obtained
From Ballistic Testing for the Vest
Components
The PM SEQ did not consistently enforce ballistic testing requirements for the five vest
component contracts. This occurred because of the following:

   •	 Ballistic testing for a FAT on two of the five contracts did not achieve the
      minimum velocity requirements detailed in the COPD during three individual
      tests. According to the Director, Technical Management Division, PM SEQ
      lowered the velocity requirements to reduce the risk of fielding delays, excessive
      quantity of rejected products, and contract defaults.

   •	 PM SEQ did not require an accelerated aging test on another FAT for any of the
      five contracts as required by the COPD. According to the chief scientist at
      PM SEQ, the accelerated aging test was not appropriate for the materials now
      used in the vest components. However, PEO Soldier officials stated that the
      accelerated aging test was and still is required.

   •	 On one of the five contracts, PM SEQ accepted 70 lots of the vest components
      before a FAT or an equivalent test was performed. According to the chief
      scientist, a FAT was not required because the components used materials that
      were identical to previously approved materials.

   •	 Of 900 lots on the five contracts, 560 lots passed LATs. For the remaining
      340 lots, PM SEQ did not require LATs. Specifically, for 318 of those lots, the
      Director, Technical Management Division, stated that LATs were not required
      because the components used materials that were identical to previously approved
      materials. For the remaining 22 lots, PM SEQ officials stated that LATs were not
      required because the contract did not authorize the insertion of any new ballistic
      panels.

As a result, the Army has only limited assurance that the vest components acquired
through the five contracts meet the contract requirements. We did not conduct any
testing of the vest components purchased through the five contracts; therefore, we do not
know whether the above conditions affected the performance of the vest components.
However, if the ballistic testing requirements are not implemented in accordance with
contract requirements, or vest components are accepted before the completion of ballistic
testing, the Army cannot assure that the vest components meet the contract requirements,
which were developed to provide an appropriate level of protection for the warfighter.




                                            5

Testing Process for the Vest Components
When soliciting bids for a contract, RDECOMAC can require the contractors to submit
the item or items for a Preliminary Design Model (PDM) test. The PDM test allows
RDECOMAC to evaluate which of the submitted models meet the product specifications
and represent a best value for award selection. In general, a PDM would not undergo the
same tests as a full FAT, although RDECOMAC could require a full FAT for the PDM
test.

After the contract award and before the contractor begins full rate production,
RDECOMAC requires a FAT to ensure that the selected contractor can continuously
manufacture the vest components to the contract requirements and product specifications.
RDECOMAC can waive a FAT if the contractor had previously furnished the same
product that had been approved as meeting all contract requirements. Further,
RDECOMAC can waive a FAT based on the results of the PDM test that included all the
FAT requirements. Additionally, RDECOMAC requires a new FAT if the contractor
makes any material or process changes to the approved ballistic package. During the
production phase, RDECOMAC requires LATs to detect and correct any random defects
prior to Government acceptance. PM SEQ is responsible for the technical aspects of the
vest components and provides RDECOMAC with the product quality requirements such
as testing and inspection requirements for incorporation in the contracts. Further,
PM SEQ is responsible for reviewing all the ballistic tests (PDMs, FATs, and LATs) to
determine whether they are in accordance with the contract requirements detailed in the
COPD. Upon completion of the test, PM SEQ will inform RDECOMAC whether the
items have passed the required test.

Ballistic testing is conducted to ensure that the vest components provide the required
protection before issuing them to warfighters. The test requirements that the items must
meet are detailed in the COPD. During testing, the test samples or vest components are
attached to a clay block, also referred to as clay backing material, which acts as a
substitute for a warfighter’s body mass. From January 30, 2002, to March 13, 2007,
PM SEQ revised the COPD specifying the ballistic testing standards for the vest
components eight times. When analyzing the FAT/LAT, we compared the test results to
a referenced COPD. If the FAT/LAT did not reference a COPD, we used the COPD that
was in effect when the test occurred.

According to the COPD, ballistic testing is divided into two categories, V0 Ballistic
Resistance and V50 Ballistic Limit. The COPD required one V0 test and 18 V50 tests for
the vest components, except for the yokes. For the yokes, the COPD required a total of
12 V50 tests at which the required velocity is slightly higher than for other components.

V0 testing is conducted by shooting a specific projectile at a given velocity at a ballistic
panel to determine whether the armor provides full protection. One of the parameters
that should be considered when measuring V0 results is back face deformation—the depth
of the crater left in the clay for each partial penetration represents the blunt force trauma
inflicted on the wearer, which can contribute to injury, incapacitation, or death. The back
face deformation should not exceed 1.73 inches or about 44 millimeters. V0 results are


                                             6

measured based on five shots—three at 0 degree obliquity1 and two at 30 degree
obliquity. V50 testing is conducted to determine the velocity at which a complete or
partial penetration of the armor is equally likely to occur. V50 results are calculated based
on a minimum of six shots—three complete penetrations and three partial penetrations,
also known as Average V50. The V0 and V50 velocities should meet or exceed the COPD
requirements.

Previously Conducted Tests Used to Waive First Article
Tests
FAR subpart 9.3, “First Article Testing and Approval,” allows PM SEQ and
RDECOMAC to waive the FAT based on previously accepted tests. Specifically,
FAR 9.306, “Solicitation Requirements,” states:

                  Solicitations containing a testing and approval requirement shall . . .
                  (c) Inform offerors that the requirement may be waived when supplies
                  identical or similar to those called for have previously been delivered
                  by the offeror and accepted by the Government (see 52.209-3(h) and
                  52.209-4(i)) . . .

We reviewed the FATs and LATs for five contracts awarded to Point Blank. PM SEQ
and RDECOMAC used previously conducted PDM tests to waive the FAT requirement
for two ballistic packages—Pathfinder and Pathfinder-S. To justify waiving the FAT,
PM SEQ and RDECOMAC provided one PDM test for the Pathfinder and one PDM test
for the Pathfinder-S. See Table 2 for specific ballistic packages used for each contract.

Preliminary Design Model Test Results Met FAT Requirements
With Exceptions
Contracts W91CRB-04-D-0014 (contract 0014) and W91CRB-04-F-0126 (contract 0126)
were awarded using the Pathfinder ballistic package for the vest components. PM SEQ
waived the FAT for contracts 0014 and 0126 based on a 2002 PDM test for the
Pathfinder ballistic package. However, three individual tests that were part of the 2002
PDM did not achieve the minimum velocity requirements detailed in COPD 00-02. The
technical director explained that the ballistic requirements for the three individual tests
were incorrectly established in the original COPD 00-02. Consequently, PM SEQ
revised the minimum velocity requirements and registered the new requirements in
COPD 00-02A, allowing the 2002 PDM test to meet the revised FAT requirements
detailed in COPD 00-02A.

In December 2004, PM SEQ transitioned from the Pathfinder to the Pathfinder-S ballistic
package for the vest components. The Pathfinder-S ballistic package was used for all
five contracts: contract 0014, contract 0126, W91CRB05-D-0003 (contract 0003),
W91CRB-05-P-0204 (contract 0204), and W91CRB-06-F-0024 (contract 0024). The


1
 Obliquity is a measure, normally in degrees, of the extent to which the impact of a projectile on an armor
material deviates from a line normal to the target.



                                                     7

PDM test for the Pathfinder-S met the FAT requirement in COPD 0-02D, except for the
accelerated aging test. The chief scientist at PM SEQ stated that this test is not
appropriate for the vest materials but did not provide any additional support for the
statement. Table 2 provides a listing of the contracts, the applicable ballistic package,
and the PDM used to waive the FAT.

          Table 2. PDM Tests Used to Waive FAT for Each Contract
Contract    Vest       Contract      PDM       Ballistic     PDM                                                            Appli­
Number      Compo­     Award         Used to   Package       Met                                                            cable
(W91CRB-) nent         Date          Waive     Name          FAT                                                            COPD
                                     FAT                     Requir­
                                                             ements
04-D-0014   DAP        6/7/2004      2002      Pathfinder    Yes                                                            00-02A
                                                                12/3/2004          Pathfinder-S            Yes*             00-02D
04-F-0126              OTV                7/7/2004              2002               Pathfinder              Yes              00-02A

                                                                12/3/2004          Pathfinder-S            Yes*             00-02D
05-D-0003              OTV and            12/22/2004            12/3/2004          Pathfinder-S            Yes*             00-02D
                       Yokes
                       and
                       Collars
05-P-0204              OTV                9/26/2005             12/3/2004          Pathfinder-S            Yes*             00-02D
                       Retrofit
06-D-0024              OTV                6/15/2006             12/3/2004          Pathfinder-S            Yes*             00-02D
                       Retrofit
*This PDM did not contain an accelerated aging test; see Pathfinder-S Ballistic Package Met the Test Requirements section below for
details.


Ballistic Testing Requirements Were Not Revised in a Timely Manner
Contracts 0014 and 0126 were awarded for the Pathfinder ballistic package. PM SEQ
program officials explained that for contracts 0014 and 0126 the FAT was initially
waived based on the 2002 PDM test for the Pathfinder ballistic package. The 2002 PDM
test was a collection of 35 individual tests conducted in February, March, August,
November, and December 2002. Because several tests did not identify the COPD, our
analysis was based on the COPD in effect at the time the tests were performed. We
identified three tests that did not achieve the minimum V50 velocity requirements detailed
in COPD 00-02, dated January 30, 2002; see Table 3 for details.

After we raised concerns that the 2002 PDM test was inadequate for waiving the FAT for
contracts 0014 and 0126, PM SEQ program officials provided additional documentation.
The additional documentation indicated the 2002 PDM was tested against the ballistic
requirements in COPD 00-02A, dated July 10, 2002. Based on COPD 00-02A, the 2002
PDM test met the ballistic requirements and was a valid basis for waiving the FAT for



                                                                 8

contracts 0014 and 0126. However, the ballistic requirements were lower in
COPD 00-02A than in COPD 00-02; see Table 3 for details.

                               Table 3. V50 Velocity Changes in the COPD
Test                        2002 PDM Test Results        COPD 00-02,                                        COPD 00-02A,
Requirements                                             dated 1/30/2002,                                   dated 7/10/2002,
                                                         Minimum V50                                        Minimum V50
                            Test Date V50                Velocity                                           Velocity
                                        Velocity         (feet/second)                                      (feet/second)
                                        (feet/second)
16 gr.* RCC**               2/25/2002 2085               2120                                               2000
V50 @ 0 degree
dry
4 gr. RCC V50               2/26/2002           2540                        2550                            2460
@ 45 degree
dry
16 gr. RCC V50              3/1/2002            2090                        2120                            2000
@ 0 degree
cold
* Grain (gr.) is the traditional unit of weights, which in this case is the weight of the threat munitions or gun powder.

** RCC is the Right Circular Cylinder, a three-dimensional figure; the bases are circles and are perpendicular to the height of the 

cylinder. 



The technical director explained that the ballistic requirements for V50 were incorrectly
established in COPD 00-02. He stated that an industry expert informed the Army Natick
Soldier Center that a body armor contractor cannot stay in business with these ballistic
requirements because 50 percent of the vest components would not meet the
requirements. According to the technical director, the industry expert advised that if the
ballistic requirements were left unchanged, it would result in fielding delays, excessive
quantity of reject products, and likely contract default. The technical director stated that
to eliminate these unacceptable risks, PM SEQ reduced the V50 requirements and issued
COPD 00-02A.

Although the technical director’s justification appears reasonable, the timing of the
change is questionable. The industry expert brought the issue to the PM SEQ’s attention
in May 2000. However, the documentation that PM SEQ provided did not indicate if the
expert’s advice was intended for the ballistic requirements that were in effect in
May 2000 or in COPD 00-02. Further, the documentation showed that PM SEQ had
almost 20 months to implement the industry expert’s advice in COPD 00-02, which
became effective on January 30, 2002. The three tests that did not achieve the minimum
velocity were conducted prior to the implementation of COPD 00-02A. In the future,
PM SEQ needs to ensure that changes to the COPD are implemented timely and the
rationale documented in the program and contract files.




                                                                   9

Pathfinder-S Ballistic Package Met the Test Requirements
The PDM test for Pathfinder-S Ballistic Package conducted on December 3, 2004, met
the FAT requirements, except for the accelerated aging test. PM SEQ program officials
used the PDM test for the Pathfinder-S ballistic package to waive the FAT and authorize
full rate production for three contracts—0003, 0204, and 0024. In addition, PM SEQ
waived the FAT for the Pathfinder-S ballistic package when it replaced the Pathfinder
ballistic package on contracts 0014 and 0126.

The one exception to the FAT requirements was the accelerated aging test. According to
the chief scientist at PM SEQ, the accelerated aging test is a very old requirement that
was carried over from a prior COPD. The test was for the rubbery material and not
intended for the Kevlar and Twaron now used in the vest components. He also stated that
the accelerated aging test is no longer part of the current IOTV requirements. However,
the accelerated aging test is still required in the current COPD.

This is another example of the inadequate internal controls that existed in the IBA
program at the time PM SEQ and RDECOMAC awarded these contracts. If, as the chief
scientist maintains, the accelerated aging test was not applicable to the vest components,
he should have informed the PM SEQ and RDECOMAC contracting officials to remove
                                       the requirement from the COPD and document the
  As previously stated, PM SEQ
                                       rationale in the program and contract files. As
  revised the COPD eight times
                                       previously stated, PM SEQ revised the COPD eight
  through March 13, 2007,
                                       times through March 13, 2007, which would have
  which would have provided
                                       provided PM SEQ ample opportunity to remove the
  PM SEQ ample opportunity to
                                       accelerated aging test requirement. PEO Soldier
  remove the accelerated aging
                                       confirmed that the accelerated aging test is required
  test requirement.
                                       and that the current COPD has been updated to
reinforce the requirement to conduct the accelerated aging test. Because of the action
that PEO Soldier has taken to address the accelerated aging test, we are not making a
recommendation to address this issue.

Vest Components Accepted Before FAT Conducted
Contract 0014 was awarded on June 7, 2004, based on the 2002 PDM test for the
Pathfinder ballistic package. The contract subsequently transitioned to the Pathfinder-S
ballistic package, which had a PDM test completed on December 3, 2004. As discussed
previously, the PDM test for the Pathfinder-S ballistic package met the FAT
requirements, except for the accelerated aging test. However, prior to the completion of
the 2004 PDM test for the Pathfinder-S ballistic package, PM SEQ accepted 70 lots
consisting of 66,430 DAPs with a value of $18.9 million. Also, PM SEQ did not require
LATs for those 70 lots. The chief scientist stated that a FAT for the Pathfinder-S was not
necessary because the ballistic materials used to build the ballistic package were identical
to the Pathfinder. The only difference between these two packages was the number of
plies. Since PM SEQ did not require any ballistic testing to verify whether the additional
plies would have any impact on the ballistic performance, we disagree that PM SEQ had
reasonable assurance that a new FAT was not necessary.



                                            10 

PEO Soldier explained that the transition of the ballistic package actually occurred under
a Defense Supply Center Philadelphia contract. PEO Soldier explained that, instead of
requiring a new FAT, Defense Supply Center Philadelphia contracting officials instituted
a double pull for LAT, which doubled the number of samples tested. Defense Supply
Center Philadelphia contracting officials confirmed that the double pull was instituted as
a Government verification testing. Although Defense Supply Center Philadelphia
instituted the verification test through the double pull for LAT, it is not equivalent to a
FAT because a FAT requires 19 tests while a LAT requires only 3 tests.

In conclusion, PM SEQ accepted the DAP without conducting a FAT or an equivalent
test, which circumvented an important internal control needed to ensure that the items
met the contract requirements. The PDM test for the Pathfinder-S ballistic package was
especially important because PM SEQ did not require LAT for the first 70 lots of DAP.
Therefore, PM SEQ had limited assurance that the Pathfinder-S would meet the FAT
requirements during the first 70 lots of DAP.

Lot Acceptance Tests Not Always Required
According to FAR Part 46, PM SEQ and RDECOMAC are responsible for performing all
actions necessary to ensure that the vest components conformed to the contract
requirements. Accordingly, LATs are performed to identify defects that may occur
during the manufacturing process and ensure finished components consistently meet the
contract requirements. LATs are generally not as extensive as FATs. For example, a
2 grain Right Circular Cylinder V50 @ 0 degree dry test is only a FAT requirement.

The number of sample items selected for a LAT depends on the lot size and the
component, such as OTV or DAP. The contracts specified the exact number of sample
items to be selected for LAT. For example, for a lot size of 1,200 OTVs, 5 should be
sampled and tested. Since each OTV had three panels (front left, front right, and back), a
total of 15 panels are required to be selected and tested. For a lot size of 2,400 DAPs,
6 samples are required to be tested.

Of 900 lots for five contracts, PM SEQ required LATs for 560 lots, or about 62 percent
of the total lots, consisting of 6,332 individual ballistic tests. The LAT results confirmed
that PM SEQ passed the LAT and accepted the lots when appropriate. On the remaining
340 lots, PM SEQ did not require LATs. Table 4 is a breakdown of the LAT for each
contract, including the number of lots accepted, the number of LATs performed and not
performed, and the number of ballistic tests performed.




                                             11 

                             Table 4. Summary of LATs
Contract        Total        Total Lots Accepted Accepted                 Number of
Number          Quantity     Accepted    Lots      Lots With               Ballistic
(W91CB-)        Accepted                 With No   LAT That                Tests for
                                         LAT       Met the Test           Lots With
                                                   Requirements             LAT
04-D-0014        702,173        410        184          226                 1,352
(DAP)
04-F-0126         50,000          43               0          43              645
(OTV)
05-D-0003        340,824         289               0          289            4,329
(OTV)
05-D-0003        117,560         134              134          0               0
(Yokes and
Collars)
05-P-0204         11,094          22              22           0               0
(Retrofit
OTV)
06-D-0024         3,000           2                0           2               6
(Retrofit
OTV)
Total           1,224,651        900              340         560            6,332

Lot Acceptance Test Not Performed for Smaller Vest
Components
For two contracts, PM SEQ did not require LATs for 318 lots, consisting of 170,417
DAPs and 117,560 yokes and collars. The two contracts and the value of the lots that did
not have LATs are:

   •	 Contract 0014—of 410 total lots for DAP, 184 lots valued at about $49 million.
   •	 Contract 0003—of 134 lots of Yokes and Collars, all 134 lots valued at about
      $10 million.

The technical director explained that PM SEQ did not require LATs because the ballistic
material was identical to the material that was previously accepted by the Government.
Also, at the time, due to urgent and compelling requirements for all components of the
IBA system, PM SEQ guidance was to require LATs for major end items such as the base
vest component. Further, the technical director explained that shot spacing requirements
could not be achieved on smaller vest components such as the DAP and the yoke
assembly. Specifically, the COPD requires, at a minimum, spacing between shots shall
be at least 2.5 inches for V50 and 3.5 inches for V0, so that sequential shots are not
influenced by previous impact areas. The COPD also requires that no shots should be
closer than 2.5 inches for V50 and 3.0 inches for V0 from any frame edge. The technical



                                           12 

director’s explanation about the shot spacing requirements is consistent with the COPD.
However, the purpose of the LAT is to ensure consistent performance and identify
defects that may occur during the manufacturing process so that the risk of
nonconforming components can be minimized. To correct this issue, PM SEQ has
implemented in the current IOTV contracts that contractors are required to supply
multiple-shoot packs of the components for LATs.

Lot Acceptance Test Not Performed for the Retrofit Outer
Tactical Vests
PM SEQ did not require LATs for contract 0204, retrofit OTVs. PM SEQ accepted
11,094 retrofit OTVs from 22 lots valued at about $2 million. PM SEQ program officials
stated that LATs were not required because the contract did not require any new ballistic
panels. According to the contract, Point Blank was required to take all actions necessary
to retrofit/recondition and convert the vest components that had been returned and/or
turned in for re-issue. Specifically, the contract required Point Blank to:

   •   inspect the ballistic panels;
   •   replace the outershells with the new Universal Camouflage pattern;
   •   provide a new yoke and collar assembly; and
   •   replace any component that may be missing with a new component.

Based on the required services, new ballistic panels may be provided; however, PM SEQ
did not require LATs. Therefore, we could not verify whether the ballistic performance
for the 11,094 retrofit OTVs met the contract requirements. Additionally, there was no
evidence of Government surveillance of the services; see Finding B for a detailed
discussion on the lack of product quality surveillance records. Since PM SEQ required
LATs for a later retrofit OTV contract, they recognized the need to conduct LATs when
appropriate for the retrofit efforts. As such, we are not making a recommendation to
address this issue.

Support Contractor Performed Inherently Governmental
Function
Contractor personnel supporting PM SEQ approved LAT results for 207 lots, with a
value of $138 million acquired under contract 0003. Although the LAT passed, the
contractor should not have approved the test result without PM SEQ reviewing the
results. The lack of Army review resulted in the contractor performing an inherently
governmental function, which is a violation of FAR 2.101, “Definitions,” and FAR
subpart 7.5, “Inherently Governmental Functions.”

The contract stated that “no lot shall be released from the Point Blank’s plant prior to
receipt of passing test reports that are approved by PM SEQ.” Prior to Government
acceptance of a lot, an assigned Government quality assurance representative (QAR) is
required to select samples and send them to a designated laboratory for ballistic testing.
When the laboratory completes the test, the results are sent to PM SEQ, the QAR, and
Point Blank. PM SEQ reviews the test results to ensure compliance with applicable



                                             13 

testing standards and ballistic performance. If no deviations are found, PM SEQ sends an
e-mail notifying the QAR and Point Blank that the lot met the testing requirements. If
the LAT identified deviations, PM SEQ sends an e-mail to reject the lot, and PM SEQ,
the QAR, and Point Blank take appropriate action to resolve the deviations, ensuring
compliance with the contract terms and conditions.

As defined in FAR 2.101, an inherently governmental function includes “activities that
require either the exercise of discretion in applying Government authority or making of
value judgments in making decision for the Government.” The FAR states that
inherently governmental functions do not normally include gathering information for or
providing advice, opinions, recommendations, or ideas to Government officials. Further,
FAR 7.503(c)(12)(v) states that administering contracts, including accepting or rejecting
contractor products, is an inherently governmental function. Accordingly, service
contractor personnel can be used to perform the tests and report the test results to
PM SEQ, but they cannot make a value judgment leading to the decision of acceptance or
rejection of a lot.

For 207 lots, PM SEQ did not fulfill its responsibilities to review the test results and
                                      make the decision to accept or reject the lots;
  For 207 lots, PM SEQ did not        instead, it allowed contractor personnel to perform
  fulfill its responsibilities to     this inherently governmental function. Contractor
  review the test results and         personnel sent approval e-mails directly to the
  make the decision to accept or      QAR    without PM SEQ’s analysis of their results;
  reject the lots; instead, it        thus, PM SEQ substituted the contractor’s
  allowed contractor personnel        judgment for its own on decisions to accept or
  to perform this inherently          reject the lots. PEO Soldier should ensure
  governmental function.              compliance with the FAR by not allowing
                                      contractor personnel to perform inherently
governmental functions.

PM SEQ issued new procedures for scoring of the ballistic test results that should prevent
this condition from occurring in the future. Two PM SEQ personnel will independently
score the test results. Then the chief scientist or the technical director—Army officials—
will independently review and score the test. The chief scientist or the technical director
will then compare his results against the other two scoring results and resolve any
inconsistencies. They will issue a final determination to accept or reject or retest a lot.

Management Corrective Actions
Since the award of these contracts, PEO Soldier has taken actions that should reduce the
risk that the conditions identified in this report are repeated. In August 2009, PEO
Soldier established an Executive Director for Quality, Process, and Compliance to verify
and implement enhanced management controls, including developing decision tools for
recording key information, events, and decisions. The Executive Director will also
ensure that decisions are reviewed as changes occur such as new requirements, contractor
performance, technological advances, and operational environment.



                                            14 

PEO Soldier has also implemented corrective action in response to prior audits by the
DoD Inspector General, the Government Accountability Office (GAO), and the Army
Audit Agency. The actions taken to improve the conditions include requiring a
Government representative to be present for all FATs and LATs and instituting a
three-tier scoring system with final approval by the chief scientist or the technical
director.

In November 2009, the Secretary of the Army announced that the National Research
Council will perform an independent assessment of ongoing body armor testing. The
Secretary of the Army stated that “The purpose of the NRC [National Research Council]
assessment is to ensure that the Army maintains the highest standards for testing
processes and protocols, thus addressing concerns raised by the GAO about current
testing procedures.”

Further, RDECOMAC has made several improvements to the newly awarded IOTV
contracts. Specifically, IOTV has been designated as a critical safety item requiring
higher quality standards. Thus, the contracts state that contractors shall comply with
International Organization for Standardization 9001/2008 quality standards. As of
December 3, 2009, Point Blank has established a quality management system that is in
compliance with the International Organization for Standardization 9001/2008. In
addition, the contracts contain a more strict quality assurance requirement for LATs. For
instance, if the contractor fails two consecutive LATs or three LATs in 100, the
contractor will immediately cease production and a review will be performed to
determine if production of the approved FAT package may resume or a new FAT will be
conducted.

Summary
The PM SEQ could provide only limited assurance that the vest components acquired
through the five contracts meet the contract requirements. Specifically, PM SEQ:

   •	 lowered the requirements in the COPD after a PDM test failed to achieve the
      minimum velocity requirements on three tests,
   •	 did not comply with the accelerated aging test requirement,
   •	 did not require LATs for 340 lots,
   •	 allowed contractors to perform an inherently governmental function, and
   •	 did not justify key decisions in writing and maintain supporting documents so that
      decisions can be tracked.

Since PM SEQ and RDECOMAC awarded the five contracts, they have implemented
numerous changes that should minimize the risk of these conditions recurring. The
changes included establishing an Executive Director for Quality, Process, and
Compliance and initiating a detailed review of ballistic test results. However, the
conditions identified on these five contracts reinforce the need for PM SEQ to fully
document decisions that impact the IBA Program.




                                           15 

Recommendations, Management Comments, and Our
Response
A. We recommend that the Commanding General, Army Program Executive Office
Soldier, institute a policy that requires all decisions to waive the first article and lot
acceptance tests be approved in writing and any other decisions that may impact the
Interceptor Body Armor Program must be justified in writing and provided to the
contracting office along with adequate documentation to support the decision.

Army Program Executive Office Soldier Comments
The Assistant Deputy for Acquisition and Systems Management, responding for
PEO Soldier agreed. The Assistant Deputy stated that PEO Soldier will issue a policy
letter that requires decisions to waive the FAT and LAT be approved by the contracting
office in writing. Further, the Assistant Deputy stated that PEO Soldier will provide the
contracting office written justification, and adequate documentation, to support the
decision to waive the FAT and/or LAT and any other decision that may impact the
Interceptor Body Armor. The Assistant Deputy stated that the policy letter will be issued
by November 30, 2010. On November 3, 2010, PEO Soldier issued policy letter, “Policy
#11-001, Program Executive Office (PEO) Policy for First Article Test (FAT) and Lot
Acceptance Test (LAT) Waiver,” implementing the recommendation.

Our Response
The Assistant Deputy’s comments are responsive to the recommendation. Therefore, we
do not require additional comments.

Management Comments on the Internal Controls and
Our Response
Army Program Executive Office Soldier Comments
The Assistant Deputy for Acquisition and Systems Management, responding for PEO
Soldier, stated that PEO Soldier agreed on the internal control weaknesses that (1) the
Army adjusted the minimum velocity requirements from COPD 00-02 to COPD 00-02A,
(2) the LAT was waived for items that previously met the First Article ballistic standards,
and (3) Army support contractors approved the LAT results.

Specifically, the Assistant Deputy stated that the COPD change was necessary because
the V50 ballistic requirements established in COPD 00-02 were unobtainable at the
then-current state of technology. The Assistant Deputy stated that after several
successful OTV procurements using the May 14, 1998, OTV purchase description,
U.S. Army procurement officials increased the V50 fragmentation requirements with
COPD 00-02, issued January 30, 2002, in an attempt to increase the OTV fragmentation
performance baseline for future procurements. However, the Assistant Deputy stated that
testing revealed that the OTV fragmentation requirements in COPD 00-02 were not
consistently attainable at the current OTV weight requirement. The Assistant Deputy



                                            16 

further stated that to avoid increasing the weight of the OTV and to reduce the risk of
fielding delays and lot rejections, PM SEQ modified the testing requirements during the
2002 Defense Supply Center Philadelphia source selection conducted under solicitation
SPO100-02-R-4025. The Assistant Deputy stated that the net result of the change from
COPD 00-02 to COPD 00-02A was to restore the OTV fragmentation performance
baseline to the values in the prior May 14, 1998, OTV purchase description. In addition,
the Assistant Deputy stated that COPD 00-02A was issued during source selection as an
amendment to the Defense Supply Center Philadelphia solicitation SPO100-02-R-4025
prior to contract award. The Assistant Deputy stated that this rationale was documented
in further detail and provided to the DoD IG in a December 8, 2009, Memorandum for
the Record, “Outer Tactical Vest V50 minimum Velocities in Purchase Description
COPD 00-02.” The Assistant Deputy also stated that, in order to ensure that future
requirement changes are properly documented, the Army will comply with the DoD
Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006.

The Assistant Deputy stated that PEO Soldier will issue a policy letter ensuring that the
contracting officer approves any decision in writing to waive FAT and LAT. See
management comments on Recommendation A for details.

The Assistant Deputy also stated that PEO Soldier agreed that the Army support
contractors approved the LAT results, an inherently governmental function. The
Assistant Deputy stated that procedural changes will prevent support contractors from
performing inherently governmental functions.

Our Response
The Assistant Deputy’s comments are responsive to the internal control weaknesses.
Therefore, we do not require additional comments.




                                            17 

Finding B. Improvements Needed for
Product Quality Surveillance for the Vest
Components
The DCMA Orlando sample selection process did not result in a proper statistically
representative sample for the LAT. In addition, QAR personnel did not always document
or retain the records needed to substantiate that they had performed quality inspections of
the vest components. Specifically:

   •	 QARs did not use a proper statistical random sampling methodology to select the
      sample for the 560 LATs on five contracts. This occurred because the QARs
      incorrectly believed that pointing and grabbing components from different stacks
      was random and provided every component an equal chance for selection.

   •	 Of the 560 LATs, QARs did not sign DD Forms 1222, “Request for and Result of
      Tests,” which document that the QARs selected and inspected the components for
      LATs for 7 lots consisting of 8,400 OTVs. This occurred because DCMA
      Orlando officials incorrectly believed that the QARs were not required to sign the
      DD Form 1222.

   •	 DCMA Orlando could not provide product inspection records for 693 lots
      (75 percent) of the 923 total lots for six contracts and inspection records of the
      key manufacturing processes. This occurred because the records were destroyed
      by Hurricane Wilma in 2005 or were maintained for only 2 years.

The impact of using a sampling methodology that does not result in a statistically
representative sample is that the LAT results cannot be relied upon to project whether an
entire lot meets the contract requirements. The QAR’s signature on the DD Form 1222 is
needed to maintain accountability and the integrity of the samples selected for the LAT.
Finally, the inspection records need to be retained in order to fully document that the
inspection process was completed prior to accepting the items.

Quality Assurance Regulations
FAR Part 46, “Quality Assurance,” prescribes policies and procedures for contract
quality assurance. This includes inspection prior to acceptance in order to protect the
Government’s interest and other measures associated with quality requirements for
products or services acquired under Government contract. Defense Federal Acquisition
Regulation Supplement Part 246, “Quality Assurance,” requires DoD Departments and
agencies to conduct quality audits to ensure that the products and services meet
contractual requirements.




                                            18 

DCMA Quality Assurance Process
As a DoD Component, DCMA provides a full spectrum of contract services, including
product and quality assurance services to ensure that products are delivered on time, at
projected cost, and meet all performance requirements. DoD Components generally
delegate these responsibilities to DCMA in writing through the contract. According to
the contracts, DCMA Orlando was responsible for inspecting the vest components at the
vendors’ plants and ensuring that no lot would be released prior to receiving the Army’s
approval of ballistic test results. On November 21, 2006, the Army Product Manager
Soldier Survivability, a subdivision of PM SEQ, PEO Soldier, issued a Quality Assurance
Letter of Instruction (QALI) providing technical guidance for DCMA Orlando’s
surveillance efforts to achieve zero defects of the vest components and reduce ballistic
test failures. The QALI specified that DCMA Orlando was responsible for:

   •	 selecting samples for LATs based on the lot size and sample size tables,
   •	 conducting product assurance surveillance to the same degree as if the 

      components were identified as critical safety items, and

   •	 performing on-site surveillance of all specified key manufacturing processes.

DCMA Orlando incorporated the Army instructions in the surveillance plan for Point
Blank. The surveillance plan listed the key manufacturing processes to be inspected and
frequency of its inspection.

Lot Acceptance Test Sample Selection Process
The LAT sample selection process began with Point Blank personnel notifying DCMA
QARs when a lot of ballistic panels was ready for a LAT. An assigned QAR reported to
the Point Blank plant and selected samples. Depending on the lot size, the QAR would
select three, five, or eight samples; see Finding A, “Lot Acceptance Tests Not Always
Required” section for details. Because a vest had more than one ballistic panel, the QAR
ensured all applicable panels were pulled for the same serial numbers or samples by
placing the panels on a table and comparing the serial numbers. Figure 2 is an example
of a ballistic panel lot ready for sample selection.




                                           19 

                   Figure 2. Ballistic Panels Ready for Sample Selection




The QAR selected the samples and recorded the serial numbers on DD Form 1222. The
QAR then signed the form and sent it, with the samples, to the applicable laboratory for
the LAT. Upon completion of the LAT, the laboratory sent the test results to PM SEQ,
DCMA Orlando, and Point Blank.

Inappropriate Sampling Methodology Used for Lot
Acceptance Test
DCMA Orlando QARs did not use an appropriate sampling methodology to select the
samples for the 560 LATs on five 2 contracts for the vest components. The sampling
methodology that the QARs used did not ensure that a representative sample was selected
for each LAT. This occurred because the QAR believed that pointing and grabbing
sample components from different stacks was random and would provide every
component the same opportunity for selection. During a site visit in June 2009, we
interviewed five QARs responsible for overseeing the Point Blank contracts to gain an
understanding of the sampling methodology used to select representative components for
the LAT. All five QARs stated that they sampled the vest components by pointing and
grabbing them from different stacks until the required number of samples was selected.




2
  The sixth contract, W91CBR-05-F-0072 was to convert the current camouflage pattern to the Universal
Camouflage pattern of all the OTVs and components; therefore, it did not require any FAT or LAT ballistic
testing.




                                                   20 

                                             Our observation 3 of the process confirmed that the
    The sampling methodology that
                                             QAR was pointing and pulling the components
    DCMA Orlando QARs used did
                                             from the different stacks.
    not provide a statistically
    derived representative sample.
                                        A QAR explained that the process was
    Without a representative
                                        unpredictable because Point Blank personnel did
    sample, the LAT results cannot
                                        not know which samples would be selected.
    be relied upon to project
                                        Although his explanation may have some logic, his
    whether a lot met the contract
                                        sampling methodology did not ensure that a
    requirements.
                                        representative sample would be selected for the
LAT. The sampling methodology the QARs used was subject to potential biases—
deliberate or unconscious in the sample selection. Military Standard 1916, “DoD
Preferred Methods for Acceptance of Product,” April 1, 1996, states that “Units of
product drawn from a lot for sample shall be selected at random from the lot without
regard to their quality. Random sampling requires that each unit in the lot, batch, or
production interval has the same probability of being selected for the sample.” Although
Military Standard 1916 was not intended for use with destructive testing, the same
principles should be applied to the vest components. When we observed the QARs’
actual sampling process for the vest components, not every item had an equal chance of
being selected. As shown in Figure 2, the ballistic panels were stacked on both sides of a
long table. The QAR pulled samples from only one side of the table, although he
explained that he swaps sides all the time.

The purpose of the LAT is to identify defects that may occur during the manufacturing
process and ensure finished components are consistently meeting the contract
requirements. The LAT relies on a statistically derived process that results in the
selection and testing of a representative sample to ensure that the product meets the
contract requirements. The representative sample is selected using a specific
methodology, but the outcome is not predictable or biased. The sampling methodology
that DCMA Orlando QARs used did not provide a proper statistically derived
representative sample. In total this would have impacted the sample selection for the 560
lots on five contracts that required LATs. Without a statistically representative sample,
the LAT results cannot be relied upon to project whether a lot met the contract
requirements. As such, PEO Soldier should perform a risk assessment to determine
whether recall of any or all of the 560 lots is necessary. In addition, DCMA Orlando
should develop a specific and defined methodology for selecting the samples for LAT of
the vest components.



3
  Our observation was conducted for contract W91CRB-08-D-0045 (contract 0045), which was not within
the scope of the audit. RDECOMAC awarded contract 0045 to Federal Prison Industries, Incorporated, for
the vest components, and Point Blank was a subcontractor, providing ballistic panels. DCMA Orlando was
also responsible for selecting and inspecting components for the LAT, as well as accepting lots once they
received approval from PM SEQ. Although contract 0045 was not within the scope of the audit, the sample
selection process by DCMA QARs was similar to the five contracts under review that had LATs.




                                                   21 

DCMA officials agreed that by definition a truly random sampling did not occur. DCMA
officials stated five different QARs were involved with selecting samples in what they
thought was a random fashion. DCMA officials stated that although the impact of using
a sampling methodology that does not result in a statistically representative sample
diminishes the confidence level that the LAT results are representative of the entire lot,
the overall negative effect is minimized by the variation in QARs. DCMA official
acknowledged that instead of being at a 95 or 99 percent confidence level that the sample
is representative, it may be slightly lower due to the incorrect methodology employed.
Consequently, DCMA officials provided a link to a random number generator tool for the
DCMA Orlando personnel to use when selecting random samples. DCMA officials
stated that they are attempting to locate or develop a more permanent random number
generator for use by the entire DCMA Quality Assurance workforce. We commend
DCMA’s responsiveness and recommend that DCMA should ensure that those
responsible for selecting samples know how to use the random number generator tool.

QAR Did Not Always Sign Form 1222, “Request For and
Results of Tests”
Of the 560 lots requiring LATs, the QARs did not sign DD Form 1222 for 7 lots
consisting of 8,400 OTVs. QAR personnel completed DD Form 1222 when inspecting
and selecting the components for the LAT. In signing DD Form 1222, the QAR verifies
the accuracy of the information on the form and certifies that representative components
were selected by a Government official. According to DCMA Orlando officials, the
QARs were not required to sign the form; rather it was a personal preference. By not
requiring the QARs to sign to the form, DCMA Orlando improperly deviated from the
instructions for completing DD Form 1222. Signing the form is an important internal
control that provides accountability for product quality assurance as well as
documentation that the samples selected for the LAT have been accomplished by a
Government QAR.

Subsequently, DCMA officials explained that when DD Forms 1222 are prescribed for
use by the procuring activity, they will be completed appropriately to include the signing
or stamping in block 15 only. DCMA officials also stated that the ballistic testing should
not be performed if this block is not signed or stamped by the Government QAR.
Further, DCMA officials stated the DD Form 1222 signature block in section B is to
acknowledge the conduct and result of testing and, therefore, would not be signed by
DCMA. We commend DCMA for implementing and clarifying the requirement to sign
DD Form 1222; therefore, we will not provide any recommendations on this issue.

Incomplete Product Quality Surveillance Records
DCMA Orlando could not provide records supporting that the QARs performed the
required product and key manufacturing process inspections. DCMA Orlando stated that
the inspection records were lost during Hurricane Wilma in 2005 or were maintained for
only 2 years. As a result, we could not evaluate whether the required product inspections
for about 693 lots (75 percent) of the 923 total lots for six contracts were performed in
accordance with the contract requirements. In addition, we were unable to verify the


                                            22 

inspection or oversight of the contractor’s key manufacturing processes since May 2005.
Without those records, we had no basis to determine whether any defects were detected
and corrected prior to Government acceptance.

Incomplete Final Inspection Records for the Vest Components
Once the QARs received the PM SEQ’s notification that a lot had passed the ballistic test
through the LAT, they would begin the final inspection, also referred to as the product
audit. The surveillance plan describes the product audit as a process of measuring,
examining, and comparing end items with the contract requirements. Of the 923 lots of
vest components accepted under the six contracts, DCMA Orlando provided inspection
records for 230 lots (see Table 5).

According to DCMA Orlando, QAR personnel inspection records for the remaining
693 lots were lost during Hurricane Wilma in 2005 or were maintained for only 2 years.
Specifically, DCMA stated that inspection records were retained on a CD that was no
longer available. Also, a quality assurance team leader stated that DCMA Orlando
followed Defense Logistics Agency Instruction 5015.1, “Defense Logistics Agency
Records Management Procedures and Records Schedule,” March 1, 2000, for record
retention, which was only 2 years. However, the Defense Logistics Agency Instruction
was superseded on November 15, 2002, before the selected contracts were awarded.

           Table 5. Summary of Available Component Inspection Records
      Type of Inspections                            Year       Number of
                                                  Performed        Lots
      Final inspection or product audit             2005*           99
      Final assembly inspection                      2007           92
      Dimensional inspection                         2005           30
      Final inspection and dimensional inspection    2005            9
                                                        Total      230
       *Of the 99 lots that had a final inspection, one was inspected in 2006 and one was inspected in 2007.

In addition, the team leader’s statement concerning the 2-year policy is inconsistent with
FAR requirements. FAR 46.104(c)(2) requires retention of records that reflect the
decisions regarding the acceptability of the products, the processes, and the requirements,
as well as action to correct defects. Further, FAR 4.805, “Storage, Handling, and
Disposal of Contract Files,” and DCMA Instructions for Product Assurance require those
records to be retained for 6 years and 3 months. Without the inspection records, we could
not evaluate whether the QARs performed the required inspections to ensure that the vest
components met the contract requirements.

For the 230 lots that had inspection records, we could not evaluate the inspections
because the information was not consistently recorded and relevant information was
incorrectly scanned. In order to select an appropriate sample size for product inspections,




                                                             23 

the QARs considered the lot size in association with the acceptance quality limit (AQL) 4
of a sampling plan. DCMA Orlando used the zero-based acceptance sampling plan that
states, for example, if a lot size is 1,200 and the AQL is 6.50 percent, the QARs will
select 11 samples for inspections. However, the QARs did not always record the AQL
information on the inspection reports. For contract 0003, the QARs either recorded the
AQL as 4.00 percent or 6.50 percent or left it blank. Because the surveillance plan did
not specify the AQL information, we requested an explanation from DCMA Orlando
officials as to how the different AQLs were determined. DCMA Orlando officials stated
the QARs can vary the AQL based on a long history of acceptable inspections. DCMA
Orlando officials’ explanations were reasonable, but the decision to vary the AQL level
should have been documented, and the new AQL level should have been recorded on the
inspection reports. Because relevant information was missing, we could not complete our
review of the product inspections.

Overall, DCMA Orlando should comply with the FAR and its record retention guidance
in order to provide a complete history of its actions or services for 6 years and 3 months
after the contract completion. Also, DCMA Orlando should require consistent and
detailed recording of its product inspections concerning the vest components.

Key Manufacturing Processes Not Included in the Surveillance
Plan
DCMA Atlanta Standard Operating Procedure No. 03-05, “Product Assurance,” revised
August 18, 2006, provides instructions for product assurance personnel regarding
(1) determining customer outcomes; (2) identifying critical safety items; (3) identifying
and assessing risks to customer outcomes; and (4) developing, executing, and
documenting results of the Product Assurance Surveillance Strategy. In addition, the
DCMA Orlando Supplier Quality Assurance Master Risk Handling Plan, revised
January 30, 2004, establishes surveillance methodologies and planning requirements that
all QARs should follow. One of the planning requirements is that QARs should use the
contract and the contractor’s devised production, manufacturing and/or quality assurance
plans, drawings, and specifications to identify key processes/characteristics. Once key
processes are identified, QARs should assign a risk level for each key process and devise
surveillance strategies for handling the assigned risk level. For example, if a key process
was rated as moderate and the strategy responding to the moderate risk level was to
inspect the key process once every quarter, QARs would document the assessment in a
surveillance plan. Table 6 lists the key processes and points of inspection that DCMA
Orlando personnel identified in the surveillance plan for Point Blank.




4
  The AQL of a sampling plan is a measure of the level of quality routinely accepted by that sampling plan.
It is defined as the percent defective that the sampling plan will accept.



                                                    24 

                    Table 6. Key Processes and Points of Inspection
                          Key Processes                Point of Inspection
                Calibration                                Semi-Annual
                Purchase Order Review                       Quarterly
                Receiving Inspection                        Quarterly
                Ballistic Ply Count                         Quarterly
                Stitching Conformity                        Quarterly
                Weight Verification                         Quarterly
                Packaging, Packing, and Marking           Each Shipment
                Ballistic Panel Inspection                Each Shipment
                Final Assembly                            Each Shipment
                Review of Ballistic Test Results          Each Shipment

DCMA Orlando personnel did not incorporate into the surveillance plan two key
processes that the PM SEQ deemed important for the vest components in its November
2006 QALI. The two key processes were Density Verification and Product Traceability.
DCMA Orlando explained that these were covered under the product audits as
characteristics. Because the majority of the inspection records were no longer available,
we could not verify whether the QARs inspected the two key processes. DCMA Orlando
officials should revise its surveillance plan to comply with the PM SEQ’s instructions
regarding the key processes. If there is a deviation from the instructions, DCMA Orlando
officials should consult PM SEQ and document its justification. Further, DCMA Orlando
officials should comply with the FAR and the DCMA record retention guidance in order
to provide a complete history of its actions or services and effectively support whether
the vest components meet the quality standards detailed in the contracts.

DCMA stated that records pertaining to acceptance decisions are to be maintained for
6 years and 3 months. There are several DCMA instructions stating this requirement,
including the Product Assurance Instruction. The DCMA Orlando team leader has
assured that each QAR is aware of this requirement. Further, DCMA stated that the
Orlando team now uses a central database for the capture and storage of surveillance
records. Therefore, we will not provide any recommendations regarding record retention.

Summary
DCMA Orlando’s sample selection methodology did not result in a proper statistically
representative sample for LAT. In addition, QAR personnel did not always document or
retain the records needed to substantiate that they had performed the quality inspections
of the vest components. In response to the audit, DCMA has directed the QARs to use a
random number generator tool when selecting random samples for the LAT. DCMA has
clarified its policy that the QARs should sign the DD Forms 1222 and maintain
surveillance records for 6 years and 3 months. DCMA Orlando’s product surveillance
over the vest components can be further improved by ensuring (1) the QARs are trained
on how to use the random number generator tool, (2) the surveillance plan contains the


                                           25 

approved surveillance strategies, and (3) the inspection records contain sufficient and
appropriate information. Appendix C provides a summary of the product quality
surveillance process and the weaknesses identified.

Recommendations, Management Comments, and Our
Response
B.1. We recommend that the Commanding General, Army Program Executive
Office Soldier, perform a risk assessment to determine whether a recall of any or all
of the 560 lots is needed as a result of the Defense Contract Management Agency
Orlando sampling process and based on the results of the risk assessment, take
appropriate action.

Army Program Executive Office Soldier Comments
The Assistant Deputy for Acquisition and Systems Management, responding for
PEO Soldier, agreed. The Assistant Deputy stated that PEO Soldier will perform a risk
assessment to determine whether a recall of any or all of the 560 lots is needed as a result
of the Defense Contract Management Agency Orlando sampling process. Further, the
Assistant Deputy stated the PEO Soldier will take appropriate actions based on the results
of the risk assessment, which is expected to be completed by April 2011.

Our Response
The Assistant Deputy’s comments are responsive to the recommendation. Therefore, we
do not require additional comments.

B.2. We recommend that the Director, Defense Contract Management Agency
Orlando, improve the product quality assurance surveillance of Point Blank Body
Armor, Inc. by:

       a. Providing training to Quality Assurance Representatives on how to use
the random number generator tool for selection of the vest components for lot
acceptance tests.

Defense Contract Management Agency Comments
The Chief Operations Officer for Operations Directorate, responding for DCMA, agreed.
The Chief Operations Officer stated that the random number generator methodology has
been implemented by all DCMA QARs across the prime body armor contractor
enterprise. The Chief Operations Officer also stated that QARs have been instructed in
the appropriate use of statistically random sampling methodologies and tools and that
DCMA provided the sampling training to all DCMA Body Armor QARs on
July 14, 2010. Further, the Chief Operations Officer stated that DCMA management will
regularly verify compliance via on-site Program Integrator observation and semi-annual
team leader reviews with individual QARs. The Chief Operations Officer stated that a
team leader completed a follow-up audit in August 2010 and a joint Region/Operations
Directorate site review was also completed in September 2010. The Chief Operations
Officer stated that Body Armor quality surveillance will continue to be reviewed via the


                                            26 

Management Internal Control Review process for 2011 and the out-years. Finally, the
Chief Operations Officers stated that based on these assessments and continuing reviews,
DCMA believes the proper sampling is and will continue to occur at all Contract
Management Office locations where body armor is being produced.

Our Response
DCMA comments are responsive to the recommendation. Therefore, we do not require
additional comments.

       b. Revising the surveillance plan to include the Program Manager for
Soldier Equipment’s instructions regarding key processes. If a deviation occurs,
Defense Contract Management Agency Orlando personnel should consult with the
Program Manager for Soldier Equipment and document its justification.

Defense Contract Management Agency Comments
The Chief Operations Officer for Operations Directorate, responding for DCMA, agreed.
The Chief Operations Officer stated that the surveillance plan has been updated to
include the QALI and Program Manager’s instructions on key processes. Further, the
Chief Operations Officer stated that deviations will be justified in writing and
coordinated with the Program Manager. Specifically, the Chief Operations Officer stated
that the QAR surveillance plan for Point Blank Body Armor dated September 16, 2010
was revised to specify all customer key process instructions. The Chief Operations
Officer stated that the current Surveillance Plan at Protective Products Enterprises,
another body armor manufacturer, incorporates all customer key process instructions as
well. In addition, the Chief Operations Officer stated that the Contract Management
Office management regularly validates continued compliance via on-site program
integrator observation, semi-annual team leader reviews with individual QARs, and the
Management Internal Control Review for 2011 and the out-years. Furthermore, the Chief
Operations Officer stated the QAR workbooks will have linkage to a data analysis
module which will provide graphical depictions of the results of key process and final
inspections. The Chief Operations Officer stated that the QARs will use this information
to make changes to his/her surveillance approach and to communicate with the customer
for possible changes to QALI instructions.

Our Response
DCMA comments are responsive to the recommendation. Therefore, we do not require
additional comments.

        c. Issuing a policy requiring the quality assurance representatives to
consistently complete the inspection reports and ensure the reports contain
sufficient and appropriate information.




                                           27 

Defense Contract Management Agency Comments
The Chief Operations Officer for Operations Directorate, responding for DCMA,
partially agreed. The Chief Operations Officer stated that DCMA already has a policy in
effect—it is DCMA Instruction 226-14, “Product Examination – QA.” However, the
Chief Operations Officer stated that enforcement and verification of compliance with the
policy needs to occur. The Chief Operations Officer explained that, to ensure
compliance, the QARs are now logging all inspection activities in an automated database
for body armor products. The Chief Operations Officer stated that this database, titled
QAR Body Armor Workbook, contains links to the contract, wide-area workflow records,
QALI, surveillance plan, DD forms 1711 and 1222s, sample selected serial numbers for
lot inspections and testing, and customer lot testing audit notifications. Further, the Chief
Operations Officer stated that DCMA is evaluating the QAR Body Armor Workbook tool
for DCMA-wide implementation. The Chief Operations Officer stated that DCMA
Eastern Region Quality Assurance will verify the corrective action implemented by
DCMA Orlando during a follow-up visit from November 29 to December 1, 2010. The
Chief Operations Officer stated that the Body Armor Workbook tool has been evaluated
and will be deployed to all applicable Contract Management Offices by
December 13, 2010. The Chief Operations Officer stated that the DCMA program
integrator will periodically review the workbook and the team leader will conduct the
semi-annual review with individual QARs. Finally, the Chief Operations Officer stated
that DCMA will conduct the Management Internal Control Review for 2011 and the
out-years.

Our Response
Although DCMA only partially agreed, we are satisfied that the corrective actions
presented by the Chief Operations Officer meet the intent of the recommendation.
Therefore, we do not require additional comments.




                                             28 

Appendix A. Scope and Methodology
We conducted this performance audit from March 2009 through September 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We conducted this audit at the following DoD and contractor sites:

   •	 Office of the Director, Operational Test and Evaluation, Pentagon, Washington,
      D.C.;
   •	 U.S. Army Research, Development and Engineering Command Acquisition
      Center, Aberdeen Proving Ground, Maryland;
   •	 U.S. Army Program Executive Office Soldier, Fort Belvoir and Haymarket,
      Virginia;
   •	 Defense Contract Management Agency Orlando, Hollywood, Florida; and
   •	 Point Blank Body Armor, Inc., Pompano Beach, Florida.

We interviewed contracting officials at RDECOMAC, program office personnel at
PEO Soldier, QARs at DCMA Orlando, and key personnel at Point Blank. We also
interviewed a Live Fire Test and Evaluation staff specialist at the Office of the Director,
Operational Test and Evaluation. To eliminate duplicate efforts and obtain additional
evidence, we coordinated with personnel from GAO and the Army Audit Agency.

We collected and reviewed documents obtained for the six contracts from RDECOMAC,
PM SEQ, DCMA, and Point Blank; see appendix D for an overview on the six contracts.
We obtained additional information from the Defense Supply Center Philadelphia. We
evaluated the internal controls over the product surveillance for the vest components to
determine whether the controls in effect were adequate.

We obtained two PDMs/FATs packages, containing 65 ballistic tests; and 560 LATs,
containing 6,332 ballistic tests from PM SEQ. We also obtained an understanding of
how PM SEQ personnel evaluated the ballistic test data. We analyzed the ballistic test
data to determine whether the PDMs/FATs and LATs met the contract requirements.
When analyzing the test data, we compared the test results to the referenced COPD. If a
specific COPD was not referenced, we used the COPD that was in effect when the test
occurred.

We conducted a walk-through of Point Blank’s manufacturing process for the vest
components and observed a DCMA QAR perform sampling of ballistic panels for a LAT
for contract W91CRB-08-D-0045. We analyzed DCMA’s inspection records for
manufacturing key processes and product quality surveillance for 230 lots. We reviewed



                                             29 

the contract files at RDECOMAC. We reviewed the FAR, the Defense Federal
Acquisition Regulation Supplement, contract documents, purchase descriptions, DCMA
surveillance plans, standard operating procedures, and quality assurance procedures.

Use of Computer-Processed Data
We used computer-processed data to answer our objectives and perform this audit. We
relied on computer-processed data such as ballistic test data prepared by independent
National Institute of Justice laboratories and provided by PEO Soldier. In addition, we
used electronic files relevant to the vest component contracts from the Electronic
Document Access system; Defense Supply Center Philadelphia; the Office of the
Director, Operational Test and Evaluation; RDECOMAC; PEO Soldier; DCMA; and
Point Blank. We determined that the information system controls are not significant to
the audit objectives and that it was not necessary to evaluate the effectiveness of
information systems controls in order to obtain sufficient, appropriate evidence. In
addition, there is sufficient supporting and corroborating information from non-computer­
processed data to support findings and conclusions.

Use of Technical Assistance
The DoD IG Quantitative Methods and Analysis Division assisted with the audit. The
Technical Director, Quantitative Methods and Analysis Division assisted us in reviewing
the quality assurance process used for the vest component contracts at DCMA Orlando.
In addition, he advised us on the validity of the DCMA sampling process used for the
LATs at Point Blank. In addition, we consulted with three engineers from the DoD IG
Technical Assessment Directorate on the transition of the ballistic package from the
Pathfinder to the Pathfinder-S. The engineers provided their opinions based on review of
ballistic test data, required product specifications, and contract documents.

Prior Coverage
This audit is the third in a series of reports in response to a request from Congresswoman
Slaughter and addresses the six vest component contracts. The first report determined
whether the Enhanced Small Arms Protective Inserts first article testing criteria for Army
contract W91CRB-04-D- 0040 was in accordance with the contract. The second in the
series focused on the contractors’ backgrounds and qualifications. The fourth in the
series will focus on the ballistic testing of the IBA inserts for the remaining seven
contracts.

During the last 5 years, the GAO, the DoD IG, and the Army have issued eight reports
related to the IBA program. Unrestricted GAO reports can be accessed at
http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted Army reports can be accessed from .mil
and gao.gov domains over the Internet at https://www.aaa.army.mil/.

GAO
GAO Report No. GAO-10-119, “Independent Expert Assessment of Army Body Armor
Test Results and Procedures Needed Before Fielding,” October 16, 2009


                                            30 

GAO Report No. GAO-07-662R, “Defense Logistics: Army and Marine Corps’s
Individual Body Armor System Issues,” April 26, 2007

GAO Report No. GAO-05-275, “Actions Needed to Improve the Availability of Critical
Items during Current and Future Operations,” April 8, 2005

DoD IG
DoD IG Report No. D-2010-027, “Army’s Management of the Operations and Support
Phase of the Acquisition Process for Body Armor,” December 8, 2009

DoD IG Report No. D-2009-047, “DOD Testing Requirements for Body Armor,”
January 29, 2009

DoD IG Report No. D-2008-067, “DoD Procurement Policy for Body Armor,” March 31,
2008

Army
Army Audit Agency Report No. A-2009-0130-FFD, “Body Armor Requirements,”
June 8, 2009

Army Audit Agency Report No. A-2009-0086-ALA, “Body Armor Testing: Program
Executive Office, Soldier,” March 30, 2009




                                        31 

Appendix B. Request From Congresswoman
Slaughter




                  32 

33 

Appendix C. Summary of the Product Quality Surveillance Process and
Weaknesses




                                  34 

Appendix D. Overview of Six Contracts
The Army awarded the selected six contracts to Point Blank for five different vest
components or services. A complete OTV subsystem consists of a base vest and
components such as yoke and collar assembly, a throat protector assembly, and a groin
protector assembly. In March 2004, DAPs were added as the first OTV accessories.
Also, the OTV subsystem consists of an outershell, ballistic panels, and an outershell
inner lining. The ballistic panels must be able to insert easily into the OTV outershell
and applicable components. The Army uniform patterns for its OTV outershells were
Woodland, Desert Camouflage, or Universal Camouflage. Below is a table providing
contract details followed by specific product descriptions.

                 Table. Overview of Contracts for Vest Components
Contract        Award        Completion Actual             Product            Quantity
No.             Date         Date          Contract                           Purchased
(W91CRB-)                                  Value
04-D-0014       6/7/2004     7/30/2008     $201,238,975    DAP                702,173


04-F-0126       7/7/2004       5/23/2005         $24,756,750      OTV         50,000



05-D-0003       12/22/2005     2/5/2007          $190,914,247     OTV         340,824



                                                 $9,816,260       Yokes       117,560
                                                                  and
                                                                  Collars
05-F-0072       6/3/2005       10/19/2005        $4,800,000       OTV         24,000
                                                                  Conver­
                                                                  sion Kit
05-P-0204       9/26/2005      10/10/2006        $1,995,145       OTV         11,094
                                                                  Retrofit
06-D-0024       5/15/2006      6/13/2007         $ 569,520        OTV         3,000
                                                                  Retrofit
Total                                            $ 434,090,897                1,248,651


Contract 0014 was awarded on June 7, 2004, for DAPs. The DAPs consisted of two
ambidextrous modular components, the Deltoid (Upper Arm) Protector and the Axillary
(Under Arm) Protector. The Deltoid Protector attaches at the shoulder of the OTV and is
secured around the wearer’s arm with a strap. The Axillary Protector is worn under the
OTV and is attached to the underside of the shoulder portion of the OTV and to the


                                            35
interior adjustment strap on the lower side of the OTV. The DAPs were issued in sets,
which consisted of two Deltoid and two Axillary Protectors.

Contracts 0126 and 0003 were awarded on July 7, 2004, and December 22, 2004,
respectively, for OTVs. The OTV base vest assembly is composed of a camouflage
outershell base vest carrier with a ballistic insert set made up of removable ballistic
(back, right front, and left front) inserts. Further, contract 0003 purchased yoke and
collar assemblies.

Contract 0072 was awarded on June 3, 2005, for DAP outershells. On June 10, 2005, the
product was changed from DAP outershells to OTV Conversion Kits. Because the Army
changed its uniform pattern, the Conversion Kit contained the following components in
Universal Camouflage pattern: OTV Carriers/Outershells, Groin Protector
Carriers/Outershells, Throat Protector Carrier/Outershell, Yoke and Collar Assemblies,
and Deltoid and Axillary Protector Carrier/Outershell. Therefore, this contract did not
require ballistic testing.

Contracts 0204 and 0024 were awarded on September 26, 2005, and June 15, 2006,
respectively, for the Retrofit/Reconditioning and Conversion of Returned Interceptor
Body Armor OTVs. Retrofit/Reconditioning was needed to transition IBA to the new
Universal Camouflage pattern. This process required Point Blank to inspect returned
OTV ballistic panels contained in the outer carrier assembly, throat protector, and groin
protector for re-use in the new outer carriers. The vendor was also required to replace the
OTV outer carriers with new OTV outer carriers, provide a new yoke and collar
assembly, replace any other component that may be missing with a new component, and
ensure that all components of the OTV were labeled with the applicable COPD.




                                             36 

Army Program Executive Office Soldier Comments





                  Click to add JPEG file




                                 37
Click to add JPEG file




               38
Click to add JPEG file




               39
Click to add JPEG file




               40
Defense Contract Management Agency Comments





                 Click to add JPEG file




                                41
Click to add JPEG file




               42
Click to add JPEG file




               43
